<html>
<title> - BEYOND BORDERS: ARE THE DEPARTMENT OF HOMELAND SECURITY'S INTERNATIONAL AGREEMENTS ENSURING ACTIONABLE INTELLIGENCE TO COMBAT THREATS TO THE U.S. HOMELAND?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
BEYOND BORDERS: ARE THE DEPARTMENT OF HOMELAND SECURITY'S INTERNATIONAL 
 AGREEMENTS ENSURING ACTIONABLE INTELLIGENCE TO COMBAT THREATS TO THE 
                             U.S. HOMELAND?
=======================================================================



                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM

                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2012

                               __________

                           Serial No. 112-111

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
80-852                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Brian Higgins, New York
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Kathleen C. Hochul, New York
Ben Quayle, Arizona                  Janice Hahn, California
Scott Rigell, Virginia               Ron Barber, Arizona
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                   Zachary Harris, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     5
The Honorable Kathleen C. Hochul, a Representative in Congress 
  From the State of New York.....................................     6

                               Witnesses

Ms. Deborah W. Meyers, Director, Canadian Affairs, Office of 
  International Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Daniel J. Neaverth, Jr., Commissioner, Department of 
  Emergency Services, Erie County, New York:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. James R. Voutour, Sheriff, Niagara County, New York:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                             For the Record

The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Letters........................................................    25


BEYOND BORDERS: ARE THE DEPARTMENT OF HOMELAND SECURITY'S INTERNATIONAL 
 AGREEMENTS ENSURING ACTIONABLE INTELLIGENCE TO COMBAT THREATS TO THE 
                             U.S. HOMELAND?

                              ----------                              


                         Monday, July 30, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                       Buffalo, NY.
    The subcommittee met, pursuant to call, at 10:00 a.m., at 
the U.S. District Court for the Western District of New York, 
9th Floor, 2 Niagara Square, Buffalo, New York, Hon. Patrick 
Meehan [Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Higgins, and Hochul.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order.
    The subcommittee is meeting today to hear testimony about 
whether the Department of Homeland Security international 
agreements are yielding actionable intelligence to help combat 
threats in the United States homeland.
    Before I begin, let me take a moment. My name is 
Congressman Patrick Meehan from the Pennsylvania suburbs of 
Philadelphia. It is just a real delight to be here today with 
two of my colleagues from our committee, Congressman Higgins 
and Congresswoman Hochul. We have had the good chance to work 
together on issues of homeland security, and I believe that I 
am not going out on a limb to say we have enjoyed each other's 
professional relationship and a personal relationship as well 
as we work together to deal with the issues of security, both 
within the United States and relations with our neighbors.
    I am particularly appreciative of Judge Arcara for allowing 
us to use the courtroom today, and I see how Judge Arcara 
maintains order in the courtroom taking notice of that gavel. 
So I appreciate the ability to keep control, and we will use it 
if our witnesses get a little too out of hand.
    But I want to thank everybody, including the witnesses, for 
attending. I appreciate the effort taken on behalf of all those 
involved to have this important field hearing. This is an 
official Congressional hearing, and we will certainly abide by 
the rules of the Committee on Homeland Security and the House 
of Representatives, which I have every suspicion are going to 
be appropriately ordered.
    Maintaining the security of the borders of the United 
States is a fundamental responsibility of the Federal 
Government. Various components of the Department of Homeland 
Security--Customs and Border Protection, Immigration and 
Customs Enforcement, and the United States Coast Guard, among 
others--work tirelessly with numerous State, local, and Tribal 
authorities in an effort to secure our borders and to keep 
American safe.
    However, a February 2011 report prepared by the Government 
Accountability Office stated that only 32 of the 4,000-mile-
long border between Canada and the United States has an 
acceptable level of security. The report also indicated the 
high risk of terrorism along the Northern Border as significant 
and highlighted the Border Patrol's lack of operational 
controls and existing vulnerabilities along the United States-
Canada border.
    Western New York is home to 3 border crossings with 
Canada--the Lewiston-Queenston Bridge, the Rainbow Bridge, and 
the bridge we can see from here, the Peace Bridge. Located in 
downtown Buffalo, it is the busiest passenger crossing point 
between the United States and Canada.
    With more than $1 million in goods and services crossing 
the U.S.-Canada border every minute, and more than 300,000 
people every day, the United States and Canada maintain the 
world's largest bilateral trading relationship. The Peace 
Bridge and the Lewiston-Queenston Bridge are the third- and 
fourth-busiest commercial crossings in the United States, 
handling $30 billion in commerce each year.
    To better deal with border issues, the United States and 
Canada's recent bilateral agreement called ``Beyond the Border: 
A Shared Vision for Perimeter Security and Economic 
Competitiveness,'' has been viewed as a major milestone for 
cross-border security cooperation. Announced jointly by 
President Obama and Prime Minister Harper, and as well 
supported and trumpeted by both of my colleagues who are with 
me here today, the plan articulates a shared approach to 
security in which both countries work together to enhance 
information and intelligence sharing about potential threats, 
to better align trusted traveler programs, to reduce wait times 
for both goods and people at border crossings, and to bring 
Canada's air passenger screening, particularly for flights 
coming from Europe, or non-visa nations, in line with U.S. 
procedures.
    In addition to U.S.-Canadian cross-border cooperation, 
information intelligence sharing between the United States and 
Canada is robust, and both intelligence and law enforcement 
agencies maintain strong relationships with their Canadian 
partners.
    Here on our side of the border, Buffalo's Joint Terrorism 
Task Force maintains the primary law enforcement relationship 
with the Ontario provincial police and the Royal Canada Mounted 
Police on counterterrorism investigations. Led by the FBI, the 
Buffalo JTTF was most notably responsible for investigating the 
Lackawanna Six case, which dismantled an al-Qaeda cell of 
United States citizens living in the Buffalo area in 2002.
    This subcommittee has received extensive briefings that 
indicate that Hezbollah maintains a presence in Toronto in 
their metropolitan area, and Interstate 90, which runs through 
Buffalo, is known as a corridor for illicit trafficking of many 
types, including human smuggling.
    In addition to the obvious threat in human smuggling 
terrorist organization poses to United States-Canada border 
security, the 
9/11 Commission identified serious gaps in the U.S. visa 
system. Several of the hijackers entered the United States by 
obtaining student or other non-immigrant visas, and then 
overstay their visas in order to carry out the attacks.
    Currently, biometric entry systems have been deployed in 
the 119 airports, 19 seaports, and 154 land ports of entry. 
However, no such biometrics exit system currently exists to 
capture information in real time to understand when an 
individual exits a country.
    By September 30, 2012, Canada and the United States should 
begin implementation of a pilot project exchanging entry data 
for third-country nationals, permanent residents of Canada, and 
U.S. lawful permanent residents with each country through two 
to four common land ports of entry. If implemented, the plan 
will have a fully functional land border exit system on the 
Northern Border using biographic data in 2014.
    To get a better understanding of these and other issues, we 
will hear from 3 government witnesses representing both the DHS 
and Erie County about the level and quality of information 
sharing on the Northern Border, and how a Beyond the Borders 
Action Plan is expected to enhance the intelligence sharing 
issues that remain to be resolved in order to make our border 
efficient and safe for trade and travelers alike. I look 
forward to hearing from today's witnesses on this very 
important topic.
    [The statement of Chairman Meehan follows:]
                  Statement of Chairman Patrick Meehan
                             July 30, 2012
                   the importance of border security
    Maintaining the security of the borders of the United States is a 
fundamental responsibility of the Federal Government. Various 
components of the Department of Homeland Security--Customs and Border 
Protection (CBP), Immigration and Customs Enforcement (ICE), and the 
U.S. Coast Guard--work tirelessly with numerous State, local, and 
Tribal authorities in an effort to secure our borders and keep 
Americans safe.
    However, a February 2011 report prepared by the Government 
Accountability Office (GAO) stated that only 32 of the 4,000-mile-long 
border between Canada and the United States had an ``acceptable level 
of security.''
    The report also indicated that the risk of terrorism along the 
Northern Border is significant, and highlighted the Border Patrol's 
lack of operational control as well as other existing vulnerabilities 
along the U.S.-Canada border.
                   northern border: western new york
    Western New York is home to three border crossings with Canada: The 
Lewiston-Queenston Bridge, the Rainbow Bridge, and the Peace Bridge. 
The Peace Bridge, located in downtown Buffalo, is the busiest passenger 
crossing point between the United States and Canada.
    With more than $1 million in goods and services crossing the U.S.-
Canada border every minute and more than 300,000 people every day, the 
United States and Canada maintain the world's largest bilateral trading 
relationship. The Peace Bridge and the Lewiston-Queenston Bridge, are 
the third- and fourth-busiest commercial crossings in the United 
States, handling $30 billion in commerce each year.
    To better deal with border issues between the United States and 
Canada, the recent bilateral agreement ``Beyond the Border: A Shared 
Vision for Perimeter Security and Economic Competitiveness'' has been 
viewed as a major milestone for cross-border security cooperation.
    Announced jointly by President Obama and Prime Minister Harper 
February 4, 2011, the plan articulates a shared approach to security in 
which both countries work together to enhance information and 
intelligence sharing about potential threats, to better align trusted 
traveler programs to reduce wait times for both goods and people at 
border crossings, and to bring Canada's air passenger screening--
particularly for flights coming from Europe or ``non-visa'' nations--in 
line with U.S. procedures.
           u.s.-canadian intelligence and information sharing
    In addition to U.S.-Canadian cross-border cooperation, information 
and intelligence sharing between the United States and Canada is robust 
and both intelligence and law enforcement agencies maintain strong 
relationships with their Canadian partners.
         counterterrorism (ct) cooperation in western new york
    Here on our side of the border, Buffalo's Joint Terrorism Task 
Force (JTTF), maintains the primary law enforcement relationship the 
Ontario Provincial Police (OPP) and the Royal Canadian Mounted Police 
(RCMP) on counterterrorism investigations. Led by the FBI, the Buffalo 
JTTF was most notably responsible for investigating the Lackawanna Six 
case, which dismantled an al-Qaeda cell of U.S. citizens living in the 
Buffalo area in 2002.
    This subcommittee has received extensive briefings that indicate 
that Hezbollah maintains a presence in the Toronto Metropolitan area 
and that Interstate 90, which runs through Buffalo, is a known corridor 
for illicit trafficking of all types--including human smuggling.
      international intelligence agreements with canadian partners
    In addition to the obvious threat human smuggling by terrorist 
organizations poses to U.S.-Canadian border security, the 9/11 
Commission identified serious gaps in the U.S. visa system. Several of 
the hijackers entered the United States by obtaining student or other 
non-immigrant visas and then overstayed their visas in order to carry 
out the attacks.
    One of the key recommendations of the 9/11 Commission was the 
implementation of a biometric entry and exit system. Congress 
subsequently mandated the creation of a fully functioning biometric 
entry and exit system in the Intelligence Reform and Terrorism 
Prevention Act of 2004. Yet 8 years after this legislation was passed, 
United States Government still does not have the ability to collect 
data on individuals exiting the country.
    Currently, biometric entry systems have been deployed to 119 
airports, 19 seaports, and 154 Land Ports of Entry (LPOEs). However, no 
such biometric exit system currently exists to capture information in 
real time to understand when an individual exits the country.
    One of the more significant aspect of the Beyond the Border Action 
Plan involves the land entry/exit program in collaboration with 
Canadian authorities. The Beyond the Border Action Plan states that the 
United States and Canada will serve as the exit function for the other 
country by exchanging entry records. Entries into one country will 
simultaneously serve as exit records from the other.
    By September 30, 2012, Canada and the United States are to begin 
implementation of a pilot project exchanging entry data for third-
country nationals, permanent residents of Canada, and U.S. lawful 
permanent residents, who enter each country through two to four common 
land ports of entry.
    If implemented as planned, the United States will have a fully-
functioning land border exit system on its Northern Border using 
biographic data in 2014.
    A more challenging proposal that is still being negotiated would 
place U.S. Customs and Border Protection (CBP) Officers on Canadian 
soil to pre-screen freight trucks at the Peace Bridge and other major 
crossings. Though many believe this would significantly decrease 
inspection delays upon entering the United States, the issue of CBP 
officers carrying--and possibly using--firearms on Canadian soil 
remains to be worked out between the countries. But, I am hopeful the 
two sides will eventually be able to come to an agreement on this 
important program.
                           today's witnesses
    To get a better understanding of these and other issues, we will 
hear from two government witnesses representing both DHS and Erie 
County about the level and quality of information sharing on the 
Northern Border, and how the Beyond the Border Action Plan is expected 
to enhance the intelligence sharing issues that remain to be resolved 
in order make our border efficient and safe for trade and travelers 
alike.
    I look forward to hearing from today's witnesses on this important 
topic.

    Mr. Meehan. Now I recognize the gentleman from New York, 
the Ranking Member of the subcommittee, Mr. Higgins, for any 
opening statement he may have.
    Mr. Higgins. Thank you, Chairman Patrick Meehan, for your 
friendship and your leadership. Pat and I have the unique 
distinction of playing ice hockey on the Congressional hockey 
team. We play a game every year for charity, and is one of 
about 5 Members of Congress to play ice hockey still. So we 
welcome you, Mr. Chairman, here today, and we thank you for 
holding this hearing.
    I would like to extend a thank you to the clerk of the 
district court, Michael Roemer, and his staff at the soon-to-
be-named Jackson Courthouse for their hospitality today. I 
would also like to thank the witnesses for appearing before us. 
I am looking forward to their testimony.
    The Department of Homeland Security has several 
international agreements designed to continue to keep our 
Nation secure while working with foreign governments. These 
agreements enhance security and promote safe travel and trade. 
Western Europe knows all too well the necessity of having 
strong international agreements. We neighbor Canada, and there 
is an impressive amount of travel and trade that occurs between 
this area and our neighboring country. As the Chairman 
indicated, we are the busiest Northern Border crossing for 
passenger vehicles and third for commercial vehicles.
    In February 2011, Canadian Prime Minister Stephen Harper 
and President Barack Obama signed the Beyond the Borders 
Declaration. This declaration is to be a long-term partnership 
built upon the perimeter approach to security and economic 
competitiveness. The White House released its Beyond the Border 
Action Plan, and the Department of Homeland Security plays an 
integral role in this process.
    The Action Plan addresses a wide range of areas of 
cooperation between our 2 countries, many of which this 
subcommittee will and has examined. The Action Plan includes 
the United States and Canada collaborating to address threats 
early through information sharing and by improving 
intelligence. It also includes sharing information intelligence 
in support of law enforcement.
    This is extremely important because in previous 
subcommittee hearings, we were told about a Hezbollah presence 
in North America. Hezbollah is Arabic for party of God. It is 
an Islamic Shia group that is committed to violent Jihad. They 
act as a proxy for Syria, for Venezuela, and for Iran. We were 
told in our committee that we should not be too concerned 
because Hezbollah's activities in 15 North America cities, 
including Toronto, is limited to fundraising activity. Well, if 
you are a terrorist organization or recognized as such and you 
are engaged in fundraising, that to me is terrorist activity.
    So we are looking for an action plan that includes an 
approach to screening inbound cargo arriving from offshore and 
establishing robust entry and exit systems at our border. This 
Action Plan seems like a much-needed step in the right 
direction. However, we have lingering questions as to how the 
elements will be actually implemented.
    For instance, how can such a robust plan exist for the 
Northern Border areas, yet this area is not considered high-
risk enough for State and local officials in this area to 
receive funding under the Urban Area Security Initiative? 
Without this program and without its funding, the local law 
enforcement and emergency personnel will, to sustain some of 
the advancements it made in 9/11, how can they be expected to 
work with the Federal partners without this necessary funding? 
How will inoperability capacity be increased under the Action 
Plan? The lack of inoperable communications has been an issue 
since September 11, and we have to fix it. What under this plan 
will be done to assist in this gap?
    With regard to cargo screening, the Action Plan raised the 
possibility of pre-inspection of U.S.-bound cargo traffic on 
the Canadian side of the border crossing. The Peace Bridge, as 
I mentioned, is the second-busiest crossing between the United 
States and Canada. Expediting traffic at the bridge is 
essential to the economic future of Buffalo and western New 
York.
    A pre-inspection pilot should be held at the Peace Bridge 
and would go a long way toward improving the congestion problem 
at the bridge as a short-term measure. We are looking at other 
issues, building capacity at both the plaza and the bridge 
span. But pre-inspection would--make this pilot project would 
be very, very helpful.
    I am enthused about having a plan that assists in our 
keeping the Northern Border secure and accessible, but it is 
important that this Action Plan works for the personnel that 
work tirelessly in the border areas to mitigate threats and 
ensure lawful trade.
    The success of the western New York economy and the safety 
is undoubtedly tied to Canada. I look forward to hearing 
testimony on how this Action Plan and other international 
agreements will be used to strengthen security and 
competitiveness.
    With that, Mr. Chairman, I yield back.
    Mr. Meehan. Thank you, Ranking Member Higgins. I would also 
like to recognize my good friend, the gentlelady from New 
York's 26th Congressional District, the neighboring district, 
for any opening comments she may have. Ms. Hochul.
    Ms. Hochul. Thank you, Chairman Meehan. Thank you so much 
for hosting this in our lovely city today. We delivered some 
good weather for you today. You leave with good feelings about 
western New York.
    I thank my Ranking Member, Brian Higgins, for your 
leadership on this committee as one of the newest Members of 
the Homeland Security Committee. I have enjoyed the 
nonpartisanship relationship that we have enjoyed very much, 
and I think that is a hallmark of that committee as we work 
together collaboratively to keep our country safe.
    I also wanted to thank the witnesses for coming here today. 
We appreciate those. Certainly as a former staffer on Capitol 
Hill, I want to thank the staff that was involved in putting 
this together, traveling here today. Also our personal staffs 
for all you to do keep us in line. So thank you.
    I think we have laid out very well how important our 
relationship with Canada is as a large trading partner, but 
also through our vulnerabilities that come with such a large 
border. One of my efforts on the committee was to ensure that 
there is language in our Secure Border Act that would make sure 
that we give the same amount of attention that we give to the 
Southern Border when we are making our priorities, the Northern 
Border, because of its large exposure. That is something that 
was pointed out by the GAO and something that we are very 
cognizant of here in western New York.
    My top priorities in Congress are to make sure that we 
continue to have a better business climate for western New York 
businesses, United States business, and a lot of that hinges on 
free trade with Canada, open borders that allow us to do what 
we used to do before the Western Hemisphere Travel Initiative 
was enacted in 2004, creating additional barriers.
    I am also concerned about the need to reduce over-
burdensome regulations that affect that flow of commerce. But 
also underlying all this, and perhaps paramount, is the need to 
keep us safe. That is something, and you mentioned some of the 
threats we have experienced already, we are very cognizant of. 
So that is the framework from which we work to make sure we 
have the flow of commerce, help our businesses, help our local 
economy. But safety, protecting American citizens, is always at 
the top.
    So I appreciate this opportunity and look forward to 
hearing from the witnesses and having the opportunity to 
question them as well. Thank you.
    Mr. Meehan. Thank you, Ms. Hochul.
    Let me take a moment to say thank you again for our 
witnesses who are here today. We are pleased to have 3 
distinguished witnesses to testify on the important topics that 
have been raised in the opening statements.
    I have the pleasure of introducing one of those, Deborah 
Meyers, who is the director of Canadian affairs in the Office 
of Policy at the Department of Homeland Security. Ms. Meyers 
coordinates the Department's engagement with Canada in support 
of the Department's goals and collaboration with its 
components, other U.S. Government agencies, and Canadian 
officials.
    Her portfolio includes counterterrorism and law enforcement 
issues, border management, immigration, critical infrastructure 
protection, and cybersecurity, and emergency preparedness. She 
played a key role in the development declaration between 
President Obama and Prime Minister Harper in 2011 called 
``Beyond the Border: A Shared Vision for Perimeter Security and 
Economic Competitiveness,'' which articulates a shared approach 
to security in which both countries work together to address 
threats within, at, and away from our borders, while expediting 
lawful trade and travel.
    Ms. Meyers also helped formulate the Department's Northern 
Border strategy.
    Thank you for being here, Ms. Meyers.
    I now recognize Ranking Member Higgins to introduce our 
other 2 witnesses.
    Mr. Higgins. Mr. Chairman, I am pleased to introduce Mr. 
Dan Neaverth, commissioner of the Erie County Emergency 
Services. Mr. Neaverth has over 22 years of public safety 
experience in service, with deployments to New York City 
following the tragic events of 9/11, the Binghamton floods, the 
crash of 3407, the 2006 October storm, and Hurricane Irene. Mr. 
Neaverth has first-hand experience with communication needs in 
disaster organization and recovery.
    A volunteer firefighter for 22 years, Mr. Neaverth also 
serves as the Orchard Park fire district chief, an adjunct 
instructor for the New York State Department of Homeland 
Security and Emergency Management, and the Buffalo Bills game 
day emergency management coordinator.
    We also are pleased to introduce Sheriff James Voutour, 
sheriff of Niagara County. Mr. Voutour has been sheriff for the 
past 3\1/2\ years, and he has been a law enforcement 
professional for over 20 years.
    Mr. Meehan. Thank you, Ranking Member Higgins.
    At this point in time, I am pleased to recognize in order 
the witnesses, who will testify before us today. I thank you 
for your extensive written testimony that was delivered to us. 
I will ask if you can do your best to try to maintain your oral 
testimony, the best you can, within the 5-minute period that we 
have. At the conclusion of each of your collective testimonies, 
we will begin the process of asking questions.
    So, Ms. Meyers, at this point in time, the Chairman 
recognizes you for your testimony.

  STATEMENT OF DEBORAH W. MEYERS, DIRECTOR, CANADIAN AFFAIRS, 
 OFFICE OF INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Meyers. Chairman Meehan, Ranking Member Higgins, and 
Congressman Hochul, thank you very much for the opportunity to 
provide testimony on this important and exciting subject.
    As the director of Canadian affairs at the Department of 
Homeland Security, I am pleased to discuss the Department's 
partnership with Canada to enhance security while facilitating 
lawful trade and travel.
    As you have noted, our partnership with Canada is critical 
to both our National and economic security. With over 5,500 
miles of land, the U.S.-Canada border is the longest shared 
border in the world. Over 300,000 people and $1.5 billion in 
trade cross the U.S.-Canada border every day, and each country 
is the other's largest trading partner.
    The importance of a security and economic partnership with 
Canada is particularly evident here in western New York. In 
2011, over 13 million cars, buses, and trucks crossed between 
the United States and Canada at the region's 4 crossings--the 
Peace Bridge, the Rainbow Bridge, the Whirlpool Rapids Bridge, 
and the Queenston-Lewiston Bridge.
    In 2011, New York's exports to Canada topped $16 billion, 
supporting thousands of U.S. jobs. Canada is also the largest 
source of foreign investment in New York. Mr. Chairman, you may 
find of particular interest to know that 30 percent of the 
Keystone States' exports go to Canada. Pennsylvania's exports 
to Canada are 3 times greater than the exports to China.
    To preserve and extend the benefits of the U.S.-Canada 
partnership, on February 2011, President Obama and Prime 
Minister Harper released the joint declaration ``Beyond the 
Border: A Shared Vision for Perimeter Security and Economic 
Competitiveness.'' This declaration was followed by a joint 
Action Plan released last December, as we noted, outlining 
specific initiatives to help turn the outer border vision into 
a reality. The outer border commits to the United States and 
Canada to pursue a perimeter approach to security working 
together, within, at, and away from the borders of our 2 
countries to enhance our security and to accelerate the 
legitimate flow of people, goods, and services between our 2 
countries.
    The declaration outlines 4 key areas of cooperation--first, 
addressing threats early; second, trade facilitation, economic 
growth, and jobs; third, integrate cross border law 
enforcement; and fourth, critical infrastructure and 
cybersecurity. The Action Plan describes the specific 
initiatives to advance each of these areas of cooperation.
    Information and intelligence sharing support a number of 
initiatives beyond the border. Specific examples include 
commitments to share risk assessment targeting scenarios and 
real-time notifications regarding individuals on the U.S. Watch 
List; provide access to information on those who have removed 
or have been refused admission or a visa from either country; 
and implement a systematic and automated biometric information-
sharing capability by 2014 to reduce identify fraud and enhance 
screening decisions.
    Importantly, all of our information sharing under Beyond 
the Border is conducted with respect for our separate 
constitutional and legal frameworks. Toward this end, our 
countries released the joint U.S.-Canada privacy principles in 
June 2012 to guide and inform all information-sharing 
activities under Beyond the Border.
    The Beyond the Border Action Plan provides implementation 
time frames, describes how we will measure progress, and names 
the responsible agency or department for each initiative. The 
White House's National security staff coordinates these efforts 
within the U.S. Government, while bilateral coordination is 
conducted through the Beyond the Border Executive Steering 
Committee.
    The U.S. and Canadian governments are committed to public 
engagement and transparency and have participated in numerous 
stakeholder outreach events, including one here in the Niagara 
region. DHS has also solicited comments on the action for 
Federal Register Notice, and continues to accept input on-line. 
To ensure continued transparency, Canada and the United States 
will generate a joint public annual Beyond the Border 
implementation report.
    The United States and Canada already have made significant 
progress implementing the Beyond the Border Action Plan. For 
example, in May 2012, U.S. Customs and Border Protection and 
the Canada Border Services Agency announced joint efforts to 
expand and enhance the trusted traveler program NEXUS, 
including opening the southbound NEXUS lane the Queenston-
Lewiston Bridge. In addition, Secretary Napolitano herself held 
a consultation with business traveler stakeholders, and the 
Canadian immigration ministry did the same in Toronto.
    Just this month, CBD and CBSA announced the installation of 
new and advanced sensor technology for the Peace Bridge and the 
Queenston-Lewiston Bridge that will help measure and report 
delays and relay this information to travelers. As a result, 
people will be able to plan their routes better, time their 
crossings, and select the bridge with the best wait times.
    In conclusion, the Beyond the Border Declaration and 
accompanying Action Plan provide the overarching vision to 
guide U.S.-Canada bilateral cooperation.
    Chairman Meehan, Ranking Member Higgins, and Congressman 
Hochul, thank you again for the opportunity to provide 
testimony today. I have submitted the written testimony and 
respectfully ask it be made part of this hearing's official 
record. I look forward to answering any questions.
    [The prepared statement of Ms. Meyers follows:]
                Prepared Statement of Deborah W. Meyers
                             July 30, 2012
    Chairman Meehan, Ranking Member Higgins, and Members of the 
subcommittee, thank you for the opportunity to provide testimony before 
you today. International partnerships and agreements are an integral 
part of the Department of Homeland Security's (DHS) efforts to combat 
threats to the U.S. homeland. As the Director of Canadian Affairs at 
the DHS's Office of International Affairs, I am pleased to discuss the 
Department's partnership with Canada to enhance security while 
facilitating lawful trade and travel.
     the department of homeland security's international priorities
    We live in a globalized world, connected by myriad complex 
networks; a world in which the movement of people, goods, and ideas 
never stops. This openness and movement fuel the tremendous 
opportunities of our networked age. But, they also bring additional 
security challenges. These challenges--from terrorism and violent 
crime, to trafficking of humans and the smuggling of illicit goods, to 
cyber threats, violent extremism, and new pandemic diseases--are 
evolving rapidly and require increased collaboration among 
international partners to achieve a rapid response. While the core 
mission of DHS may be domestic security, its achievement depends on 
efforts that extend beyond our borders.
    In order to prevent threats from reaching the homeland from abroad, 
we work with our international partners to try to identify, detect, 
prevent, and respond to threats. Many of them threaten not only the 
United States but also our allies. To this end, we work with foreign 
partners to respond operationally to security threats and to share 
knowledge and expertise that will ultimately improve our respective 
capabilities. Assisting in this effort, DHS has personnel stationed in 
over 75 different countries, and these personnel are key to 
identifying, detecting, and preventing threats before they reach our 
shores.
                        partnership with canada
    Our partnership with Canada is critical to both our National and 
economic security. At over 5,500 miles in length, the U.S.-Canada 
border is the longest shared common border in the world and includes 
both land and maritime domains. Additionally, the United States and 
Canada are connected by over 120 land ports of entry. There are more 
than 3,000 last points of departure flights from Canada into the United 
States each week. Roughly 300,000 people and $1.5 billion in trade 
cross the U.S.-Canada border every day, and each country is the other's 
largest trading partner. The United States and Canada also share 
critical infrastructure which includes essential border and other bi-
national economic infrastructure such as ports of entry, bridges, 
pipelines, rail lines, power grids, communications networks, and water 
supplies. Some communities straddle the border, with commuters who 
cross the border every day to go to and from work, schools, hospitals, 
and sporting events.
    Of course, the importance of security and economic partnership with 
Canada is particularly evident in Buffalo, New York. In 2011, over 13 
million cars, busses, and trucks crossed between the United States and 
Canada at the region's four crossings: Peace Bridge, Rainbow Bridge, 
Whirlpool Rapids Bridge, and Lewiston-Queenston Bridge. Like the United 
States more broadly, New York State's top export destination is Canada. 
In 2011, New York's exports to Canada topped $16 billion, supporting 
thousands of jobs. Canada is also the largest source of foreign 
investment in New York.
    Trade with Canada is not just important for Northern Border States. 
In fact, Canada is the top export destination for 36 of the 50 States. 
For example, nearly 30% of exports from Pennsylvania are destined for 
Canada. Pennsylvania's exports to Canada are over three times as large 
as the State's next most frequent foreign export destination, China.
    Over time, both the United States and Canada have recognized our 
interdependencies and shared responsibilities and have worked closely 
together to expedite the secure movement of legitimate travel, while 
protecting our people from common threats such as terrorism, 
trafficking, and crime. For example, both the 2001 U.S.-Canada Smart 
Border Accords and the 2005 Security and Prosperity Partnership of 
North America demonstrated the United States' recognition that we can 
achieve our security goals only through collaboration with our 
neighbors and partners, and resulted in some important achievements 
such as the trusted traveler program NEXUS and enhanced law enforcement 
cooperation through Integrated Border Enforcement Teams. The successful 
bilateral collaboration supporting the 2010 Vancouver Winter Olympics 
thrived in areas ranging from maritime and aviation security to 
infrastructure improvements and emergency preparedness provides a more 
recent example.
 the united states-canada beyond the border declaration and action plan
    Recognizing the continued importance of the U.S.-Canada 
partnership, President Barack Obama and Canadian Prime Minister Stephen 
Harper released the joint declaration, Beyond the Border: A Shared 
Vision for Perimeter Security and Economic Competitiveness, on February 
4, 2011. This declaration committed the United States and Canada to 
pursue a perimeter approach to security, working together within, at, 
and away from the borders of our two countries to enhance our security 
and accelerate the legitimate flow of people, goods, and services 
between our two countries. Beyond the Border includes multiple Cabinet-
level departments, reflecting a true interagency effort within each 
government and binationally.
    The Beyond the Border declaration outlines four key areas of 
cooperation:
  <bullet> Addressing Threats Early;
  <bullet> Trade Facilitation, Economic Growth, and Jobs;
  <bullet> Integrated Cross-Border Law Enforcement; and
  <bullet> Critical Infrastructure and Cybersecurity.
    Importantly, the Beyond the Border declaration also committed our 
governments to develop a joint Action Plan outlining the specific 
initiatives we will undertake to realize the goals of this declaration. 
Following months of deliberate and constructive work with our Canadian 
partners, President Obama and Prime Minister Harper released the Beyond 
the Border Action Plan on December 7, 2011. The Action Plan specifies 
several initiatives in support of each of the four Key Areas of 
Cooperation.
    To Address Threats Early, the United States and Canada are 
improving our intelligence and information sharing, and developing 
joint and parallel threat assessments in order to support informed risk 
management decisions. We are working together to uncover and disrupt 
threats and counter violent extremism and to enhance domain awareness. 
We also are enhancing our efforts to identify and screen travelers at 
the earliest point possible, with a common approach, including 
biometrics. This fall, we will pilot an integrated U.S.-Canada Entry-
Exit system at the land border in which documented entry into one 
country serves to verify exit from the other country.
    To support Trade Facilitation, Economic Growth, and Jobs, the 
United States and Canada are pursuing creative and effective solutions 
to manage the flow of information, goods, and people across our shared 
border. We are implementing common practices and streamlined procedures 
for customs processing and regulatory compliance, and expanding, 
harmonizing, and automating trusted traveler and trader programs. We 
are investing in modern infrastructure and technology, making our 
shared border more efficient and secure, and facilitating cross-border 
business travel. We are finalizing an integrated cargo security 
strategy that, among other things, ensures compatible screening methods 
for goods and cargo before they depart foreign ports for the United 
States or Canada, and consequently, accelerate subsequent border 
crossings between our two countries. Through U.S.-Canada port of entry 
committees, we are promoting collaboration between our Government 
officials on overall port management. We also intend to negotiate an 
agreement to allow for preclearance operations in the land, rail, and 
sea modes as well as update the existing air preclearance agreement.
    To advance Integrated Cross-Border Law Enforcement, we will deploy 
regularized Shiprider operations in which U.S. and Canadian officials 
jointly patrol our shared waterways. Building on the successes of 
Shiprider as well as Integrated Border Enforcement Teams and Border 
Enforcement Security Taskforces, we intend to develop the next 
generation of integrated cross-border law enforcement operations, and 
pursue National security and transnational crime investigations 
together. To support these bilateral law enforcement efforts, we are 
advancing greater law enforcement interoperability and information 
sharing between our countries.
    In order to jointly safeguard our Critical Infrastructure and 
Cybersecurity, we are working together to prevent, respond to, and 
recover from physical and cyber disruptions of critical infrastructure, 
including creating U.S.-Canada opportunities for joint risk analysis 
and conducting joint outreach with stakeholders. We are also 
strengthening our resilience to threats and hazards that both our 
nations face, including further enhancing our collective preparedness 
and response capacity to a range of health security threats and natural 
and man-made disasters.
Information and Intelligence Sharing Under the Beyond the Border Action 
        Plan
    Information and intelligence sharing support a number of 
initiatives in the Beyond the Border Action Plan. Importantly, all of 
our information-sharing work under the Beyond the Border Action Plan is 
being conducted with respect for our separate constitutional and legal 
frameworks that protect privacy, civil liberties, and human rights and 
provide for appropriate recourse and redress. The Beyond the Border 
Action Plan committed our countries to developing joint United States-
Canada Privacy Principles, which were released in June 2012. The United 
States-Canada Privacy Principles inform and guide information and 
intelligence sharing under the Beyond the Border Action Plan. These 
joint principles reflect the shared commitment of the United States and 
Canada to protecting privacy consistent with each country's domestic 
laws. Responsible sharing not only demonstrates respect for citizens' 
privacy and civil liberties but also facilitates and promotes the flow 
of accurate, relevant, and necessary information to address threats to 
national security and conduct law enforcement.
    Areas of work include:
  <bullet> Addressing agency policies that may improve information 
        sharing by developing clear channels or mechanisms for cross-
        border sharing of intelligence and information;
  <bullet> Promoting increased informal sharing of law enforcement 
        intelligence, information, and evidence through police and 
        prosecutorial channels, consistent with the respective domestic 
        laws of each country; and
  <bullet> Examining whether current frameworks should be changed to 
        address impediments to cooperation, and to ensure that the 
        terms of applicable laws, agreements and treaties provide the 
        widest measure of cooperation possible.
    Specific examples of information-sharing initiatives under the 
Beyond the Border Action Plan include commitments to:
  <bullet> Share risk assessment/targeting scenarios, and enhance real-
        time notifications regarding the arrival of individuals on U.S. 
        security watch lists;
  <bullet> Provide access to information on those who have been removed 
        or who have been refused admission or a visa from either 
        country, including those with criminal convictions; and
  <bullet> Implement a systematic and automated biographic information 
        sharing capability by 2013 and biometric information-sharing 
        capability by 2014 to reduce identity fraud and enhance 
        screening decisions, and support other administrative and 
        enforcement actions.
    Together, these initiatives will help improve immigration and 
border determinations, establish and verify the identities of 
travelers, and conduct screening at the earliest point possible.
Oversight and Implementation of the Beyond the Border Action Plan
    The Beyond the Border Action Plan provides implementation time 
frames, describes how we will measure progress, and names a responsible 
agency or Department for each initiative. Numerous U.S. agencies and 
Departments are involved in implementing the Beyond the Border Action 
Plan, including the Departments of State, Justice, Agriculture, and 
Transportation. However, DHS and its component agencies are the U.S. 
lead for a majority of the Beyond the Border initiatives. The National 
Security Staff coordinates these efforts within the U.S. Government 
while bilateral management and oversight of the Action Plan's 
implementation is conducted through the Beyond the Border Executive 
Steering Committee, which includes senior-level representation from 
multiple U.S. agencies and their Canadian counterparts.
    The U.S. and Canadian governments are also committed to public 
engagement and transparency. The input and cooperation of public and 
private-sector stakeholders are key as the U.S. Government moves 
forward with this ambitious Action Plan. Since the December 2011 
announcement of the Beyond the Border Action Plan, the United States 
and Canada have participated in numerous stakeholder outreach events, 
including in Buffalo/Niagara Falls, New York; Detroit, Michigan; 
Minneapolis, Minnesota; Helena and Missoula, Montana; Cleveland, Ohio; 
Bellingham and Seattle, Washington; Washington, DC; Calgary, Alberta; 
Ottawa, Ontario; Toronto, Ontario; Montreal, Quebec; and Saskatoon, 
Saskatchewan. DHS also has solicited comments on the Beyond the Border 
Action Plan through a Federal Register Notice posted in December 2011, 
and the Department continues to accept input on-line at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7f78647273796975787f726f79786f5d756c3379756e337a726b33">[email&#160;protected]</a> The feedback and comments received, both 
in-person at outreach events, through correspondence, and on-line, are 
helping to inform the implementation efforts. All of the Beyond the 
Border-related documents and announcements are available on-line at 
www.dhs.gov/beyond-the-border.
    Finally, to ensure continued transparency, Canada and the United 
States will generate a joint, public annual Beyond the Border 
Implementation Report, which will be issued yearly during the 3-year 
period set out in the Leaders' February 4, 2011 Declaration, with the 
expectation of continuation. The first such annual report will be 
released by December 31, 2012.
Early Accomplishments Under the Beyond the Border Action Plan
    The United States and Canada already have made significant progress 
in implementing the Beyond the Border Action Plan since December 2011. 
For example, as previously mentioned, the United States-Canada Joint 
Privacy Principles were publicly released in June 2012.
    In February 2012, Canada began recognizing NEXUS members for 
trusted traveler lanes at passenger pre-board screening points for 
flights from Canada to the United States. This initiative decreases 
screening time for trusted travelers departing Canada for the United 
States by as much as 70%. The U.S. Transportation Security 
Administration's (TSA) intends to provide a similar benefit to trusted 
travelers departing the United States to Canada following the full 
implementation of the PreCheck<SUP>TM</SUP> program.
    In May 2012, Customs and Border Protection (CBP) and the Canada 
Border Services Agency (CBSA) announced joint efforts to expand and 
enhance the trusted traveler program NEXUS, including conducting 
enrollment blitzes, implementing an expedited renewal process, and 
creating a plan to expand NEXUS lanes and booths at key ports of entry. 
Initial steps include reducing the backlog of NEXUS applicants in 
Ottawa, deploying a new trusted traveler kiosk at Billy Bishop Toronto 
City Airport, and opening a NEXUS lane at the Queenston/Lewiston 
Bridge. In May and June of this year, CBSA and CBP enrolled more than 
1,000 new members into the NEXUS program.
    Also, CBSA has announced it will extend NEXUS membership 
eligibility to citizens of Canada currently residing abroad, or who 
have recently returned to Canada. The United States amended this 
requirement in 2009. CBP and CBSA also announced the installation of 
new and advanced sensor technology at the Peace Bridge and Queenston-
Lewiston Bridge that will help measure and report delays, and relay 
this information to travelers. As a result, people will be able to plan 
their routes better, time their crossing, and select the bridge with 
the best wait times.
    Furthermore, in May, TSA and Transport Canada also announced mutual 
recognition of our respective air cargo security programs, eliminating 
rescreening except for cause. Cargo shipped on passenger aircraft will 
be screened at the point of origin and will not need to be rescreened 
at the border or prior to upload in the other country, thereby 
increasing the efficiency of screening and reducing the burden on 
industry.
    Also in May, DHS released the Considerations for United States-
Canada Border Traffic Disruption Management guide. This guide outlines 
best practices and identifies critical issues to consider when 
developing or updating traffic management plans to ensure they are 
tailored to address regional requirements and individual border 
crossings. Following this, in June DHS released the Compendium of U.S.-
Canada Emergency Management Assistance Mechanisms, which summarizes 
National-level acts, agreements, frameworks, guidance, plans, and 
procedures for emergency response operations, communication and 
coordination, preparedness, and recovery.
    By the end of 2011, CBP and CBSA established joint Port of Entry 
Committees at the 20 largest land border ports of entry, and in June 
2012, they announced the establishment of similar committees at the 
eight Canadian airports at which CBP conducts preclearance. The 
committees help facilitate legitimate cross-border trade and travel and 
promote collaboration on overall port management, by, for example, 
identifying specific initiatives to improve border management and 
efficiency.
    In June 2012, the Canadian Parliament passed legislation 
permanently authorizing the Shiprider program. Under Shiprider, U.S. 
and Canadian authorities jointly patrol shared waterways such as the 
Great Lakes, thereby removing the maritime border as an impediment to 
law enforcement.
    In July, the Department of Agriculture's Food Safety and Inspection 
Service and the Canadian Food Inspection Agency announced the 
completion of plans to initiate a pilot project in September on import 
re-inspection activities for fresh meat. This project will consider 
alternative methods for reviewing import documents prior to the 
shipment's arrival at the U.S. border and alternative methods for 
release of shipments that are destined for further processing at a Food 
Safety and Inspection Service official establishment.
    Other key initiatives are scheduled to be implemented by the end of 
2012, including:
  <bullet> Implementing an entry-exit pilot project at two to four 
        automated common land border ports of entry, such that a record 
        of entry into one country could be considered as a record of an 
        exit from the other;
  <bullet> Completing the first-ever Joint Border Infrastructure 
        Investment Plan, which will help ensure mutual understanding of 
        available funding for targeted projects and the schedule, 
        scope, and responsibilities for those projects;
  <bullet> Launching pilot programs to validate and shape the 
        implementation of the Integrated Cargo Security Strategy, with 
        an aim toward resolving security and contraband concerns as 
        early as possible in the supply chain or at the perimeter.
  <bullet> Updating the existing air preclearance agreement and 
        negotiating a preclearance agreement in the land, rail, and 
        marine modes to provide the legal framework and reciprocal 
        authorities necessary for CBP and CBSA to effectively carry out 
        their security, facilitation, and inspection processes in the 
        other country.
                      dhs northern border strategy
    Finally, I want to briefly discuss the DHS Northern Border 
Strategy, released in June 2012. The DHS Northern Border Strategy is 
the first unified DHS strategy to guide the Department's polices and 
operations at the U.S.-Canada border. It takes a Department-wide look 
at the Northern Border and considers all of DHS's authorities, 
responsibilities, and capabilities to describe a cross-cutting, all-
missions approach. It is consistent with and will help advance the 
bilateral initiatives outlined in the Beyond the Border Action Plan.
    The DHS Northern Border Strategy identifies three key goals:
  <bullet> Deterring and preventing terrorism and smuggling, 
        trafficking, and illegal immigration;
  <bullet> Safeguarding and encouraging the efficient flow of lawful 
        trade, travel, and immigration; and
  <bullet> Ensuring community resiliency before, during, and after 
        terrorist attacks and other disasters.
    To accomplish these goals, DHS will utilize five means and methods:
  <bullet> Partnerships;
  <bullet> Information, intelligence, interdictions, and 
        investigations;
  <bullet> Technology;
  <bullet> Infrastructure; and
  <bullet> Personnel.
    The DHS Northern Border Strategy recognizes that partnerships with 
Canada are particularly critical for enhancing Northern Border 
security. By articulating key goals and the means and methods to be 
used to achieve those goals, the DHS Northern Border Strategy enables 
the Department to be a better partner in implementing the Beyond the 
Border Action Plan.
                               conclusion
    The proximity of Canada to the United States, the large flows of 
goods and people between our two countries, and the intertwined nature 
of our economies, communities, and the security of our citizens require 
that bilateral security cooperation remain a U.S. priority. The Beyond 
the Border Declaration and accompanying Action Plan provide the 
overarching vision to guide U.S.-Canada bilateral cooperation. This 
initiative has already and will continue to yield important security 
and trade and travel benefits for the American public. DHS is committed 
to working with partners in and outside of government on both sides of 
the border to see through its implementation.
    Chairman Meehan, Ranking Member Higgins, and Members of the 
subcommittee, let me conclude by reiterating my appreciation for the 
opportunity to provide testimony today. I look forward to answering any 
questions.

    Mr. Meehan. Thank you, Ms. Meyers.
    At this point in time, Commissioner Neaverth, we would look 
forward to your testimony.

STATEMENT OF DANIEL J. NEAVERTH, JR., COMMISSIONER, DEPARTMENT 
          OF EMERGENCY SERVICES, ERIE COUNTY, NEW YORK

    Mr. Neaverth. Chairman Meehan, Ranking Member Higgins, and, 
of course, Committee Member Hochul. I am Daniel J. Neaverth 
Jr., Commissioner of the Erie County Department of Emergency 
Services, and I want to thank you for the opportunity to 
testify and submit for the record regarding cross-border 
initiatives, collaborative homeland security efforts, and 
intelligence sharing.
    The Buffalo, Erie, and Niagara Urban Area Security 
Initiative, under the leadership of its three co-chairs, 
facilitate the direction of our homeland security efforts 
consistent with Presidential directives.
    Homeland security efforts in our community feature numerous 
partners and key stakeholders. Local, county, State, and 
Federal agencies gather routinely to discuss best practices, 
intelligence updates, and training initiatives.
    Even before the tragic events of September 11, 2001, the 
first response agencies of western New York worked in a 
collaborative effort to train, equip, and respond as a region. 
We count among these partners the Niagara Region of Canada. Our 
International Joint Commission has resulted in the cross-border 
contingency plan. Now this cross-border contingency plan is 
very historic. As a matter of fact, the joint tradition has 
resulted in the plan itself and its agreement in North America 
is the first of its kind. The signatures on this document 
represent a common goal between the Niagara Region of Canada, 
including all of its municipal entities, the City of Buffalo, 
and the Counties of Erie as well as Niagara.
    Now the primary focus of the agreement is to expedite 
appropriate resources in times, and even before times, of 
crisis, and to focus those energies where they are needed. A 
secondary benefit is a regularly-scheduled grass-roots dialogue 
between international partners often missed on the Federal 
level. I am happy to announce that Sean Herbert, who is the 
associate director of regional emergency planning, was part of 
that as co-chair, is in the room with us here today, and he is 
happy to be a part of this effort.
    Well, these efforts have resulted in maximizing collective 
talents regardless of jurisdiction. The project has led to 
cross-border exercises, planning events, and facilitation of 
our Canadian counterparts in Homeland Security trainings that 
were previously limited to U.S. citizens.
    One particular effort that I take great pride in has been 
the cross-training of personnel in the incident command system, 
as well as hazardous materials. This partnership has resulted 
in a timely notification during incidents and, more recently, 
investment in a common emergency management platform known as 
Disaster LAN or DLAN.
    As for intelligence gathering, I requested that one of our 
partner agencies update me on the current cross-border 
initiatives. I hope you fully appreciate the fact that my 
department does not have as a key mission an intelligence 
component, but that we are kept in the loop and updated on key 
issues and concerns several times per week. My inquiry was with 
New York State Investigator Fred Andriaccio. He is with Troop 
A's counterterrorism unit.
    Investigator Andriaccio commented that his group, and I 
quote, ``They're actively involved in several cross-border 
intelligence and information-sharing initiatives, including 
Canadian and American law enforcement organizations, CALEO, a 
monthly meeting that brings together numerous law enforcement 
agencies from both sides of the border, meeting 1 month in 
Canada, and the next month they come back to the United States. 
We also sponsor a very well-attended educational training 
summit each year. The New York State Police counterterrorism 
unit, they hold counterterrorism meetings, and law enforcement 
and emergency response agencies are all invited.'' There are 
more details in my statement.
    Now I attended their 2012 counterterrorism conference held 
at the First Niagara Center in downtown Buffalo. There was 
excellence in attendance. It was attended by not only our 
Canadian partners from law enforcement, but other emergency 
management branches as well.
    Now some of our key homeland security-funded initiatives 
include a 400-MHz interoperable platform. This allows our fire 
agencies in Erie County to communicate with each other on a 
common spectrum. Our mobile operations command vehicles serve 
as a regional resource allowing numerous agencies in and out of 
Erie County the tools for a more effective management of 
command and control during prolonged incidents and planned 
events.
    Currently our 9-1-1 system is being updated. Thank you for 
the homeland security funding for that. The critical upgrade 
will enhance all public safety answering points in the county 
with more accurate dispatch.
    One of Erie's that is a Homeland Security funding that I 
think has been absolutely tremendous has been in the area of 
the western district incident management team. The team 
consists of Federal Emergency Management Agency-trained 
personnel from a 10-county region of the western New York area. 
This, when requested, responds to disasters within the State, 
assisting local, county, and State agencies with emergency 
management, incident command solutions, and incident action 
plan development. The team has already deployed to several 
disasters, including last year's devastating floods following 
Hurricane Irene, the 2010 Gowanda floods, and of course the 
crash of flight 3407.
    The list of accomplishments is incredible. The partnerships 
are priceless. Of course, concerns about the reduction funding 
to urban area security groups--many of these projects have 
reoccurring maintenance costs, calibration issues, and 
personnel budget lines tied directly to the life of that grant.
    The co-chairs of the BEN region fully appreciate the 
current economic environment, and we realize that everybody 
must feel the pain. But we question the decisions to depart 
from the established threats and critical infrastructure-based 
criteria. A short drive from this facility, as you noted, you 
will find our international crossings, the economic arteries of 
North America. You will also find the engine that powers the 
Northeast.
    I will wrap things up now and conclude my comments here. 
With millions of homeland security dollars being dedicated to 
interoperable projects and tighter and tighter spend-down time 
tables, one area we would like to focus on is the FCC. They are 
extremely accommodating, and the Federal agencies on both sides 
of the border are aware of this. However, we have some major 
needs and major concerns with the licensing of these 
frequencies as it relates to cross-border. I can get more into 
that with my testimony if you would like.
    Chairman Meehan, Ranking Member Higgins, and Subcommittee 
Member Hochul, let me conclude by reiterating my appreciation 
for the opportunity to provide testimony today. The first 
responders of western New York have repeatedly answered the 
call. They have faced man-made horrors of Ground Zero with our 
brothers and sisters in New York City and the wrath of Mother 
Nature. Sustained funding for equipping and training these 
individuals is critical to that mission. I thank you for your 
time and look forward to answering any of your questions.
    [The prepared statement of Mr. Neaverth follows:]
             Prepared Statement of Daniel J. Neaverth, Jr.
                             July 30, 2012
    Chairman Meehan, Ranking Member Higgins, and Members of the 
committee: I am Daniel J. Neaverth, Jr., Commissioner of the Erie 
County Department of Emergency Services. Thank you for the opportunity 
to testify and submit testimony for the record regarding cross-border 
initiatives, collaborative homeland security efforts, and intelligence 
sharing.
    The Buffalo, Erie, and Niagara Urban Area Security Initiative 
(UASI) under the leadership of its three co-chairs, facilitate the 
direction of our Homeland Security efforts consistent with Presidential 
Directives. Homeland Security efforts in our community feature numerous 
partners and key stakeholders. Local, county, State, and Federal 
agencies routinely gather for discussions on best practices, 
intelligence updates, and training initiatives.
    Even before the tragic events of September 11, 2001, the first 
response agencies of Western New York have worked in a collaborative 
environment to train, equip, and respond as a region. We count among 
these partners the Niagara Region of Canada. Our International Joint 
Commission (IJC) has resulted in the Cross-Border Contingency Plan, a 
historic first-of-its-kind agreement in North America. The signatures 
on this document represent a common goal between the Niagara Region of 
Canada including all of their municipal entities, the City of Buffalo, 
and the Counties of Niagara and Erie. The primary focus of the 
agreement, expedite appropriate resources in times of crisis regardless 
of the imaginary lines we define as borders. A secondary benefit is a 
regularly-scheduled grass-roots dialogue between international partners 
often missed at the Federal level.
    These efforts have resulted in maximizing collective talents 
regardless of jurisdiction. This project has lead to cross-border 
exercises, planning events, and facilitation of our Canadian 
counterparts in Homeland Security trainings previously limited to U.S. 
citizens. One particular effort that I take great pride in has been the 
cross-training of personnel in the Incident Command System and 
hazardous materials. This partnership has resulted in timely 
notifications during incidents and more recently, investment in a 
common emergency management platform known as Disaster Lan or DLAN.
    As for intelligence gathering I requested that one of our partner 
agencies update me on the current cross-border initiatives. I hope you 
appreciate the fact that my department doesn't have as our key mission 
an intelligence component but that we are kept in the loop and updated 
on key issues and concerns several times per week. My inquiry was 
directed to investigator, Fred Andriaccio, Troop A Counter-Terrorism 
Unit.
    Investigator Andriaccio commented that his group is:

`` . . . actively involved in several cross-border intelligence and 
information-sharing initiatives including the Canadian American Law 
Enforcement Organization (CALEO), a monthly meeting that brings 
together numerous LE agencies from both sides of the border, meeting 1 
month in Canada, the next in the United States. We also sponsor a very 
well-attended educational training summit each year; this year it was 
in Buffalo, NY. The purpose is to network with agencies from across the 
border, as well as our own Law Enforcement partners, sharing 
intelligence information and educational training initiatives.

``Another group is the Integrated Border Enforcement Teams (IBET) of 
which our Partnership Purpose and Goal is increasing the effectiveness 
of the Smart Border Action Plan signed by the U.S. Attorney General and 
the Canadian Solicitor General in December 2001. The IBET GIS Work 
Group was formed to support IBET's mission of securing the U.S./
Canadian border by facilitating partnerships such as the Land Use/Land 
Cover (LULC) The LULC data and the partnerships developed through this 
project will support a joint Common Operational Picture (COP) that 
involves multiple law enforcement agencies.

``In our New York State Police Counterterrorism Unit, we hold 
Counterterrorism Zone meetings, and the Canadian Law Enforcement and 
Emergency Response agencies are always invited.''

    I attended the 2012 Counterterrorism Conference, held at the First 
Niagara Center in downtown Buffalo. There was excellent attendance by 
our Canadian brothers and sisters in law enforcement and emergency 
responders. I would like to thank Investigator Andriaccio and note that 
my request for updates on his cross-border projects and his prompt 
reply, should serve to reinforce the cooperation that exists among all 
of our agencies.
    Some of our key Homeland Security-funded initiatives include, a 
400-MHz interoperable platform allowing all fire agencies in Erie 
County to communicate with each other on a common spectrum. Our mobile 
operations command vehicles serve as a regional resource allowing 
numerous agencies in and out of Erie County the tools to more 
efficiently manage command and control during prolonged incidents and 
planned events. Currently our 9-1-1 system is being updated. This 
critical upgrade will enhance all public safety answering points in the 
county with more accurate dispatch information. Funds have been 
dedicated to improve surveillance, detection update all hazard plans, 
plus equipment and train our first responder on the latest tactics.
    Your Homeland Security funding efforts have allowed us to create 
the Western District Incident Management Team (IMT). This team consists 
of Federal Emergency Management Agency (FEMA)-trained personnel from a 
10-county region of Western New York. The team when requested responds 
to disasters within the State, assisting local, county, and State 
agencies with emergency management, incident command solutions and 
incident action plan development. The team has already deployed to 
several disasters, including last year's devastating floods following 
Hurricane Irene; the 2010 Gowanda, New York floods; and closer to home, 
the crash of Flight 3407.
    The list of accomplishments is impressive; the partnerships, 
priceless. Of concern however is the reduction of funded Urban Area 
Security groups. Many of these projects have reoccurring maintenance 
costs, calibration issues and personnel budget lines tied directly to 
the life of the grant. The co-chairs of the BEN region fully appreciate 
the current economic environment and the realization that everyone 
needs to share in reductions. We question the decision to depart from 
the established threat and critical infrastructure-based criteria. A 
short drive from this facility you will find our international 
crossings, the economic arteries of North America. You will also find 
the engine that powers the Northeast.
    An area in need of better collaboration on the Federal level 
involves the approval of Federal Communication Commission (FCC) 
licenses for first response agencies bordering Canada. Currently an 
agency, in addition to the traditional FCC application, must wait for 
cross-border approval so as to avoid potential interference. Whereas I 
fully appreciate the need for communication channels to be vetted, the 
time frame for acceptance is excessive. Oftentimes, despite a clear 
demonstration of negative interference, licenses are denied. Erie 
County applied for 400-MHz approval to activate our MED channels early 
in 2011. We have yet to receive approval. The end result, a key 
component of our county-wide system designed to assist in ambulance 
tracking, mass casualty tactical operations and hospital status, 
remains silent.
    With millions of homeland security dollars being dedicated to 
interoperable projects and tighter and tighter spend-down time tables, 
it's imperative that constructive dialogue begin on rectifying this 
cross-border public safety issue.
    The FCC has been extremely accommodating and Federal agencies on 
both sides of the border are aware, however this needs to be front and 
center on everyone's radar. It's a large border with thousands of 
agencies seeking a more efficient means of approval. Improvements in 
our ability to detect, deter, and respond shouldn't be negatively 
impacted by a lack of dialogue.
    Chairman Meehan, Ranking Member Higgins, and Members of the 
subcommittee, let me conclude by reiterating my appreciation for the 
opportunity to provide testimony today. The first responders of Western 
New York have repeatedly answered the call. They faced the man-made 
horrors of Ground Zero with our brothers and sisters in New York and 
the wrath of Mother Nature. Sustained funding for equipping and 
training of these individuals is critical to that mission. I thank you 
for your time and look forward to answering any questions.

    Mr. Meehan. Thank you, Commissioner. I am grateful for your 
testimony.
    Sheriff Voutour--is that how it----
    Sheriff Voutour. That is correct, Mr. Chairman.
    Mr. Meehan. Voutour, thank you. I appreciate your being 
here today, and look forward to your testimony. Sheriff 
Voutour.

  STATEMENT OF JAMES R. VOUTOUR, SHERIFF, NIAGARA COUNTY, NEW 
                              YORK

    Sheriff Voutour. Mr. Chairman and distinguished Members of 
the subcommittee, my name is James Voutour. I am the elected 
sheriff of Niagara County, New York. I have been a law 
enforcement professional for the past 20 years and sheriff for 
the past 3\1/2\ years.
    As the chief law enforcement official of Niagara County, I 
am responsible for keeping the peace and protecting the 
citizens of Niagara County. It is my honor to be asked to 
testify here today, and I thank you for that privilege. I will 
try to make my testimony a little bit more specific to Niagara 
County, although we are a response partner with Erie County and 
the Buffalo region.
    As you know, Niagara County is located in the northwest 
corner of New York State. The combined population for the 
Buffalo-Niagara region is 1.35 million, and that is before a 
single tourist sets foot in our area. What is unique about our 
county is that we share an international border with Canada to 
our west, to our north, and a small portion to our south. In 
total, there are approximately 40 miles of international border 
we are charged with protecting in Niagara County.
    We are host to one of the wonders of the world with Niagara 
Falls, which attracts millions of tourists from around the 
world yearly. We have 3 international ports of entry in Niagara 
County as we have heard today--the Rainbow Bridge, the 
Whirlpool Bridge, and the Lewiston-Queenston Bridge. These 
bridges account for a large portion of the traffic into the 
United States and are among the most active bridges in the 
entire country.
    More than 13 million people cross these bridges into the 
Buffalo-Niagara area on an annual basis. There are 7,000 
commercial vehicles crossing the international bridges on a 
daily basis. A single, significant incident occurring on any of 
these bridges could result in a Nation-wide hardening of all 
international traffic, resulting in an immediate economic 
impact throughout North America.
    I mention our international bridges first for good reason. 
Niagara County sits just 30 miles south of the Greater Toronto 
area. The Greater Toronto area is home to nearly 6 million 
people, of which nearly half are immigrants. The population in 
and around Toronto continues to grow at a rapid pace, making 
Toronto one of the most multicultural cities on face of the 
earth.
    Toronto has become a destination for refugees from strife-
torn countries in the Middle East. Many of these citizens 
travel across our international bridges on a regular basis to 
take advantage of comparatively lower prices with less tax at 
our shopping malls, and they continue on to northeast cities 
such as New York and Washington, DC.
    Local law enforcement is the second line of defense in 
supporting Federal agencies, such as Customs and Border 
Protection and the Border Patrol, in their mission of ensuring 
that all those desiring entry into the United States are both 
properly screened and vetted at our established ports of 
entries.
    Niagara County is also home to the Niagara Power Project, 
the largest producer of electricity in New York State, 
generating 2.4 million kilowatts of power. The economic impact 
of a terrorist attack at the Niagara Power Plant would be 
catastrophic not only for New York, but also for the entire 
northeast and Canada.
    The Buffalo-Niagara region has long been home to a number 
of plants in the electro, petro, and chemical industry. There 
are more than 50 facilities that produce, store, and ship 
extremely hazardous materials in the Niagara region alone. 
These materials are transported daily and throughout the region 
by truck and train, making the area vulnerable to a 
catastrophic event.
    The mission of the Buffalo/Erie, Niagara Urban Area Work 
Group is to maximize the efforts of jurisdictions located in 
the Buffalo, Erie, and Niagara areas to prevent, prepare, 
respond to, and recover from acts of terrorism, including 
weapons of mass destruction and naturally occurring 
catastrophic events.
    UASI funding has allowed us to train, equip, practice, and 
prepare for such events described in our mission statement. Our 
expertise was put to the test with the crash of flight 3407, 
the Gowanda floods of 2009, and the October storm of 2006. The 
funding has allowed Niagara County to participate in regional 
and Federal task forces throughout our region.
    Our sheriff's office currently assigns full-time 
investigators to the FBI Joint Terrorism Task Force. The FBI 
regional computer forensics lab, the Buffalo Office of the 
Alcohol, Tobacco, and Firearms, the Army Counterintelligence 
Unit, and Customs and Border Protection, also assign members to 
our Niagara County Drug Task Force.
    I cannot stress enough the importance I place on having the 
ability to assign my staff to these task forces to protect our 
region. You may remember the arrests and convictions of the 
Lackawanna Six in the spring of 2002. This discovery and arrest 
was a direct result of the JTTF here in Buffalo, and a Niagara 
County sheriff's investigator played an important key role in 
that investigation.
    Mr. Chairman, the continuing success of the task force 
needs three key pieces. First, we must have a dedicated pool of 
experienced law enforcement officials. Second, we need highly-
trained law enforcement leadership. Third, the financial 
resources that the Federal Government can provide.
    Niagara County is facing a shrinking budget once again in 
2013. The recent elimination of the Buffalo-Niagara UASI group 
greatly diminishes the ability to protect our borders. We need 
to continue to plan, equip, and practice to protect our 
citizens. We also need to continue to improve our interoperable 
communications for our first responders and build fusion 
centers with our Canadian partners to share not only 
intelligence, but real-time intelligence. I fear that these 
financial cuts will quickly bring the Buffalo-Niagara region 
back into pre-9/11 times.
    Mr. Chairman, I applaud your committee for the work you 
have embarked on to protect our borders. Your support in 
Washington is greatly needed and greatly appreciated by the 
Buffalo/Niagara region. I believe that if we work together, we 
will be able to uphold our oath to serve and protect, and the 
Buffalo-Niagara group will be able to fulfill our mission 
statement. Thank you for the opportunity to address this 
committee.
    I would like to close with a quote from our President: ``We 
cannot continue to rely on our military in order to achieve the 
National security objectives that we've set. We've got have a 
civilian National security force that's just as powerful, just 
as strong, just as well-funded.''
    Mr. Chairman, my partners here are your civilian National 
security force. Thank you.
    [The prepared statement of Sheriff Voutour follows:]
             Prepared Statement of Sheriff James R. Voutour
                             July 30, 2012
    Mr. Chairman and distinguished Members of the subcommittee, I am 
James R. Voutour, the elected sheriff of Niagara County, New York. I 
have been a law enforcement professional for the past 20 years and 
sheriff for the past 3\1/2\ years. As the chief law enforcement 
official in Niagara County, I am responsible for keeping the peace and 
protecting the citizens of Niagara County. It is my honor to be asked 
to testify here today, and I thank you for the privilege.
    As you know, Niagara County is located in the northwest corner of 
New York State. The combined population for the Buffalo-Niagara region 
is 1.35 million before a single tourist enters the region. What is 
unique about our county is that we share an international border with 
Canada to our west, to our north, and a small portion to our south. In 
total, there are approximately 40 miles of international border we are 
charged with protecting. We are host to one of the wonders of the world 
with Niagara Falls, attracting millions of tourists from around the 
world yearly. We have 3 international ports of entry in Niagara County: 
the Rainbow Bridge, the Whirlpool Bridge, and the Lewiston-Queenston 
Bridge. These bridges account for a large portion of traffic into the 
United States and are among the most active bridges in the country. 
More than 14 million people cross the bridges into the Buffalo-Niagara 
area on an annual basis. There are 7,000 commercial vehicles crossing 
the international bridges on a daily basis. A single, significant 
incident occurring on any of these bridges would result in a Nation-
wide ``hardening'' of all international traffic, resulting in an 
immediate economic impact throughout North America.
    I mention our international bridges first for good reason. Niagara 
County sits just 30 miles south of the Greater Toronto area. The 
Greater Toronto area is home to nearly 6 million people, of which 
nearly half are recent immigrants. The population in and around Toronto 
continues to grow at a rapid pace making Toronto one of the most multi-
cultural cities on Earth. Toronto has also become the destination for 
refugees from strife-torn countries in the Middle East. Many of these 
citizens travel across our international bridges on a regular basis to 
take advantage of comparatively lower prices and less tax at our 
shopping malls and to continue on to northeast cities such as New York 
and Washington, DC. Local law enforcement is the second line of defense 
in supporting Federal agencies such as Custom and Border Protection and 
Border Patrol in their mission of insuring that all those desiring 
entry to the United States are properly screened at our established 
ports of entry. The loss of UASI funding will greatly diminish our 
ability to maintain this working relation, particularly with our 
Canadian partners.
    Niagara County is also home to the Niagara Power Project, the 
largest producer of electricity in New York State, generating 2.4 
million kilowatts of power. The economic impact of a terrorist attack 
at the Niagara Power Plant would be catastrophic for not only New York, 
but also the entire Northeast and Canada. The Buffalo-Niagara region 
has long been home to a large number of plants in the electro-petro-
chemical industry. There are more than 50 facilities that produce, 
store, and ship extremely hazardous materials in our region alone. 
These materials are transported daily throughout the region by truck 
and train making the area vulnerable to a catastrophic event.
    The mission of the Buffalo/Erie/Niagara Urban Area Work Group is to 
maximize the efforts of jurisdictions located in the Buffalo, Erie, and 
Niagara areas to prevent, prepare for, respond to, and recover from 
acts of terrorism and events involving weapons of mass destruction and 
naturally occurring catastrophic events.
    UASI funding has allowed our region to train, equip, practice, and 
prepare for such events described in our mission statement. Our 
expertise was put to the test with the crash of flight 3407, the 
Gowanda floods of 2009, and the October storm of 2006. The funding also 
allows Niagara County to participate in regional, Federal tasks forces 
throughout the region. Our sheriff's office currently assigns full-time 
investigators to the Buffalo FBI Joint Terrorism Task Force (JTTF), the 
FBI's regional computer forensics lab, the Buffalo Office of the Drug 
Enforcement Agency (DEA) and the FBI's cyber task force. Conversely, 
the Buffalo Office of Alcohol, Tobacco, and Firearms (ATF), the Army 
Counter-Intelligence Unit and Customs and Border Protection all assign 
an agent to the Niagara County Drug Task Force. I cannot stress enough 
the importance I place on having the ability to assign my staff to 
these task forces to protect our region. You may remember the arrest 
and conviction of the Lackawanna Six in the spring of 2002. This 
discovery and arrest was a direct result of the JTTF task force and a 
Niagara County Sheriff's Investigator played a key role in the 
investigation.
    Mr. Chairman, the continuing success of this task force needs three 
key pieces. First, we must have a dedicated pool of highly experienced 
local law enforcement officials; second, we need highly skilled 
leadership, and third, the financial resources that the Federal 
Government can provide. Niagara County is facing a shrinking budget 
once again in 2013. The recent elimination of the Buffalo-Niagara UASI 
group greatly diminishes the ability to protect our borders. We need to 
continue to plan, equip, and practice to protect our citizens. We also 
need to continue to improve inter-operable communications for our first 
responders and build fusion centers with our Canadian partners to share 
real-time intelligence. I fear that these financial cuts will quickly 
bring the Buffalo-Niagara region back into pre-9/11 times.
    Mr. Chairman, I applaud the committee for the work you have 
embarked on to protect our borders. Your support in Washington is 
greatly needed and appreciated by the Buffalo/Niagara region. I believe 
that if we work together, we will be able to uphold our oath to serve 
and protect and the Buffalo-Niagara group will be able to fulfill its 
mission statement. Thank you for the opportunity to address this 
committee. I will close with a quote from President Obama.
    ``We cannot continue to rely only on our military in order to 
achieve the National security objectives that we've set. We've got to 
have a civilian National security force that's just as powerful, just 
as strong, just as well-funded.'' Mr. Chairman and Members of Congress, 
we are your civilian National security force. Thank you.

    Mr. Meehan. Thank you, Sheriff, for your testimony. Thanks 
to each of our witnesses not only for your testimony, but for 
your service. We must be getting ready for a new form of 
testimony. Nobody knows what is going to come on that screen, 
huh? There is not something we are waiting for, is there, on 
the screen? Okay.
    Ms. Hochul. Live Olympics.
    [Laughter.]
    Mr. Meehan. Yeah, this is a swimming--yeah. Well, thank you 
for your testimony, and thank you again, as I said, for your 
service to our country.
    I will now recognize myself for 5 minutes of questioning.
    Ms. Meyers, I appreciate the work that you have done, a lot 
of the work that has been trend-setting in Beyond the Borders. 
We enjoy a special relationship with our neighbors from Canada, 
and one which has been steeped in a long tradition of 
friendship and cooperation. But, of course, we have both 
realized the threats to our homelands and the unique 
relationship that Canada shares in the form of its ties back to 
Europe and other places. As was testified by the sheriff, it 
has become, Toronto in particular, a location of which there 
has been a significant amount of people from around the world 
who have traveled to Canada for a variety of reasons, but not 
the least of which is, you know, hoping for a better life.
    In the work that you have done in Beyond the Borders, can 
you tell me what has happened in the form of increasing the 
ability for us to share intelligence information about threats 
that could emanate from either side, but more often we believe 
it is likely to emanate from somebody who is using Canada as a 
method to try to gain entrance into the United States?
    So what has been done to enhance that? What are the 
barriers to continuing or increased communication or 
information sharing, intelligence sharing in our relationship?
    Ms. Meyers. Chairman Meehan, thank you for that question. 
As you noted in your opening remarks, one of the elements of 
the Beyond the Border initiative is working together within, 
at, and away from our borders to address threats in the 
earliest way possible. This is where information sharing is 
absolutely critical. As Prime Minister Harper noted, a threat 
to one country is a threat to both countries.
    So there are a number of specific items in the Beyond the 
Border Action Plan that address this, including working 
together to develop a shared understanding of the threat, 
working together on joint threat and risk assessments, 
collaborating to enhance awareness, and working together to 
understand each other's legal systems so that we can be sure 
that we can share the information that is necessary, that is 
accurate and timely. Thank you.
    Mr. Meehan. Could you talk a little bit about that, because 
that is one of the issues. Is there any unique concerns with 
regard to privacy or access to information that serves as a 
barrier to effective intelligence sharing with our friends and 
colleagues in Canada?
    Ms. Meyers. There is actually, sir, a very robust 
relationship between intelligence communities in both countries 
and the law enforcement officials in both countries as we have 
heard today. So that collaboration is on-going.
    It is not an accident that one of the earliest deliverables 
in the Beyond the Border Action Plan was the joint statement on 
privacy principles to ensure that everyone understood that we 
take seriously the commitment to privacy that each country has, 
and to be very explicit about our commitment to ensure that 
there is a specific purpose for the information sharing, that 
that information is accurate, that it is timely, that it is 
used only by those who have a need to know, and that there is 
transparency and oversight of that process, and that there is 
redress during the process. So that is absolutely critical, and 
it will inform all the information-sharing networks.
    Mr. Meehan. Thank you. Let me ask both the commissioner and 
the sheriff, from your experience from a local perspective. I 
had the good fortune prior to this point in time in service to 
have been appointed as a United States attorney and served with 
my good friends, Mike Battle and Terry Flynn. I know that the 
same position is in good hands here now in Buffalo, New York. 
But it was during a period of time in which we were dealing 
with the threat of terrorism.
    One of the big inroads that was made was the creation of 
the Joint Terrorist Task Forces. So now you are in a unique 
circumstance. We often have enough difficulty where I am from 
just making sure New York, and New Jersey, and Pennsylvania, 
and Delaware are communicating effectively enough across State 
borders.
    Are you able to include within your network sufficiently 
your partners from Canada? I know that there has been some 
cooperation with the Coast Guard and the Canadian folks with 
controlling some of those. But are there impediments or 
opportunities with regard to real participation on both sides 
of the borders, either our folks in Canada or Canadian 
colleagues working with us here in the United States? 
Commissioner or Sheriff, if you would like to answer that 
first? Commissioner Neaverth.
    Mr. Neaverth. I can tell you that the collaborative 
efforts, and I tried to address it in my opening comments, that 
the collaborative efforts on the grass roots are just really 
with the sheriff and myself as well as our partners over on the 
Canadian side. We collaborate with them. We have tremendous 
collaborative efforts with our Federal partners here in the BEN 
region. We continue to have discussions, local discussions in 
several different subcommittees. We work very closely with the 
port security. So it is a matter of reaching out and having 
those ties.
    I cannot stress enough how important it is when something 
major happens or is about to happen, that information sharing. 
There is the technical aspect of that, but there is the human 
aspect, too. To me, as an emergency manager, the most valuable 
aspect are the relationships that have been formed, at least at 
the grass-roots level, in our Federal delegation.
    I use as an example, when the sheriff came in this morning, 
I am not meeting the sheriff of Niagara County for the first 
time. We have been deployed to many things, and we have been to 
many conferences together. We have worked collaboratively 
through the BEN region. There are some of our Federal partners 
that are sitting here in the audience today, as well as our 
Canadian partners.
    So I think when you talk about intelligence and information 
sharing, what we have managed to do here is to pull together, 
not only Erie County and Niagara County, and the Canadian 
region as far as these collaborative efforts, but we have also 
pulled in all of our Federal partners. We include the 10-county 
region of the western district. So you could pull in an 
emergency manager from any one of the 10 counties, or even 
first responders, or sheriffs deputies from those counties, and 
people are on a first-name basis with one another.
    I think that is the critical aspect when it comes to 
intelligence and information sharing is those one-on-one 
relationships.
    Mr. Meehan. Thank you. Sheriff, do you have some thoughts?
    Sheriff Voutour. Mr. Chairman, what I have seen in the past 
20 years, and the problem is, probably within the last 5 or 6 
years with our assignment to the Joint Task Force here in 
Buffalo is the cooperation between local and Federal. Just here 
at the FBI office just a couple of blocks from here, they have 
made just tremendous strides to bring all of us as partners 
that the commissioner talked about into one room on at least a 
quarterly basis. They have vetted all those partners.
    Most of us all have received our top secret clearance, 
which allows us to really get a good handle on the western area 
of Canada. I think that has probably been the most promising 
thing that we have had in the past couple of months is the 
ability to get those people vetted, bring them all to the 
table, and share that information. Canadian partners are at the 
table with us.
    Mr. Meehan. Sheriff, my time has expired, but I do have one 
question with regard to that. Do you have full, active members 
on the Joint Terrorism Task Force from Canada?
    Sheriff Voutour. I am not sure if we do from Canada.
    Mr. Meehan. Okay.
    Sheriff Voutour. I know that most of it is the American 
side.
    Mr. Meehan. Okay.
    Sheriff Voutour. I am not sure. Commissioner, do you know 
for sure?
    Mr. Neaverth. No. That was not included in the comments 
from the investigator from the State police.
    Mr. Meehan. Right.
    Mr. Neaverth. I could not answer that.
    Mr. Meehan. I do not know that we do, and that was one of 
the questions I would have whether there is some particular way 
for us to enhance the activity by finding a way to include 
that, because I think it would only enhance the ability to be 
better prepared. But I am sure there are issues, and we may 
revisit that with some subsequent questions.
    But at this point in time, my time has expired. I turn the 
questions over to my colleague from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Before I question the 
witnesses, I would ask for unanimous consent to submit comments 
from the Buffalo and Fort Erie Public Bridge Authority for the 
record.
    Mr. Meehan. So ordered.
    [The information follows:]
         Letters Submitted For the Record by Hon. Brian Higgins
 Border Trade Alliance Supports Pre-processing Pilot at Buffalo Peace 
                                 Bridge
    Issue.--The Peace Bridge spans the Niagara River and links Buffalo, 
NY and Ft. Erie, Ontario. The bridge is one of four toll crossings 
linking western New York with southern Ontario, one of the fastest-
growing metropolitan areas in North America.
    The Peace Bridge is the busiest automobile crossing between Canada 
and the United States and the third-busiest commercial crossing, with 
approximately 1.3 million trucks traversing the bridge annually. While 
Canada has made significant infrastructure improvements to facilitate 
the movement of people and commerce into Canada, the U.S. customs plaza 
remains a 60-year-old antiquated, constrained facility with not enough 
primary inspection booths to efficiently service the current traffic 
volumes. The plaza resides adjacent to an urban neighborhood and 
Olmsted-designed park. The Environmental Impact Statement process to 
expand the plaza is now in year 10 with no end in sight.
    Pre-clearance not an option.--To address the geographic constraints 
in Buffalo, in the mid-2000s the concept of Customs pre-clearance was 
explored as an option to relieve the congestion at the bridge as well 
as to increase the security of this valuable element of bi-national 
infrastructure.
    The concept centered on U.S. Customs and Border Protection (CBP) 
officers located on Canadian soil performing all their inspection and 
enforcement activities of U.S.-bound traffic in Canada before the 
conveyance or auto reached the Peace Bridge. In 2007, confirmed in 
2009, this concept was rejected as it would have resulted in a lower 
level of security than at other U.S. ports of entry or required Canada 
to accept actions contrary to its Charter of Rights and Freedoms.
    As recently as a February 2011 Capitol Hill hearing, U.S. 
Department of Homeland Security Secretary Janet Napolitano said:

``We have looked into preclearance on the Canadian side. We cannot do 
it: The position has not changed . . . We understand the importance of 
the span for trade and tourism and so forth. But we are not going to be 
able to resolve the preclearance issues in Canada.''

    Pre-processing: A simple, elegant solution.--In early February 2011 
President Obama and Minister Harper signed a joint declaration entitled 
``Beyond the Border--A Shared Vision for Perimeter Security and 
Economic Competitiveness'' which included the following statements:

``We intend to pursue creative and effective solutions to manage the 
flow of traffic between the United States and Canada. We will focus 
investment in modern infrastructure and technology at our busiest land 
ports of entry, which are essential to our economic well-being.

``We will strive to ensure that our border crossings have the capacity 
to support the volume of commercial and passenger traffic inherent to 
economic growth and job creation on both sides of the border.''

    The Border Trade Alliance (BTA) supports the statements by Canada 
and the United States that preclearance is not possible. However, both 
countries should implement a creative, innovative model that respects 
Canadian sovereignty and provides for U.S. security needs by 
establishing a commercial-only pre-processing facility in Canada.
    Under this model, the Peace Bridge Authority would build a CBP 
commercial facility in Canada that would consist of primary inspection 
booths, offices, and parking. Primary processing would be conducted in 
Canada, with a ``go'' or ``no-go'' message sent ahead to the 
enforcement/release booth in the United States based on the outcome of 
the preliminary inspection. More than 90% of commercial shipments are 
released based on the primary inspection. If the CBP officer determines 
more intensive inspection is required, that inspection and any 
associated enforcement would be carried out in the United States. The 
driver would not know whether a ``go'' or ``no-go'' determination was 
made at the time of the initial inspection.
    Benefits:
  <bullet> Facility would be paid for by the Peace Bridge Authority.
  <bullet> Would result in a 72% increase in throughput capacity.
  <bullet> CBP officers in the United States would know what was 
        coming.
  <bullet> Smaller, less expensive plaza in the United States and 
        better integration with neighborhood.
  <bullet> Greater security as space created for additional non-
        intrusive inspection facilities.
    BTA position.--The Border Trade Alliance supports the Peace Bridge 
Authority's pre-processing concept and urges DHS/CBP and CBSA to carry 
out a demonstration project at the bridge.
    The BTA has consistently called for pushing enforcement away from 
the border when possible and for seeking opportunities to leverage 
creative thinking to relieve congestion and speed the flow of 
legitimate trade and travel.
    The pre-processing pilot could serve as a model for other Northern 
Border ports of entry where appropriate to meet the demands of 
increasing cross-border trade and travel.
                                 ______
                                 
                                     July 30, 2012.
U.S. House of Representatives,
Committee on Homeland Security, Subcommittee on Counterterrorism and 
        Intelligence, H2-176 Ford House Office Building, Washington, DC 
        20515.
RE: Field Hearing--Beyond Borders--Are the Department of Homeland 
Security's International Agreements Ensuring Actionable Intelligence to 
Combat Threats to the U.S. Homeland?

    Dear Chairman Meehan and Ranking Member Higgins: These comments are 
filed on behalf of the Buffalo and Fort Erie Public Bridge Authority 
(PBA), an international compact entity operating between the U.S. and 
Canada, which has owned and managed the Peace Bridge since 1933. First 
opening to traffic in 1927, the bridge traverses the Niagara River 
between Fort Erie, Ontario, and Buffalo, New York, and is a key 
international border crossing. The span also serves as the busiest 
Northern Border crossing for automobiles and third-busiest for 
commercial carriers, with 6,056,998 total vehicles utilizing the 
corridor in 2011.
    The subcommittee's July 30, 2012, field hearing provides the 
perfect opportunity to address progress with many of the key 
deliverables of the U.S.-Canada Beyond the Border Accord--A Shared 
Vision for Perimeter Security and Economic Competitiveness, which was 
signed this past year between President Barack Obama and Prime Minister 
Stephen Harper.
    Several specific components of the accord are of great interest to 
Western New York and the PBA, including:
  <bullet> Increased promotion and implementation of the NEXUS and FAST 
        trusted traveler programs to ensure continued growth and 
        greater reliability in border movements for individuals and 
        commercial shipments.
  <bullet> Potential pilot projects regarding the pre-inspection of 
        U.S.-bound commercial vehicles at certain border crossings, 
        including the Peace Bridge corridor.
Trusted Travel Promotion
    With over 88,000 NEXUS cardholders residing in the Western New York 
and Niagara regions, the use and popularity of this trusted traveler 
program is paramount to local security and economic prosperity. Roughly 
16% of total traffic at the Peace Bridge utilizes NEXUS lanes. As part 
of the Beyond the Border Accord, a commitment was made by the U.S. and 
Canadian governments to better market and promote the program, in order 
to increase these NEXUS usage and enrollment figures even further.
    While a strong ``sweat equity'' push (entitled NEXUS Niagara) has 
been put on this year between the PBA, the Niagara Falls Bridge 
Commission, Canada Border Services Agency, and CBP (to help grow and 
publicize the program), no Federal funding commitments have yet been 
made to buttress such efforts. Therefore to fully harness the true 
time-savings and congestion reduction features of NEXUS and other 
trusted travel programs, it is critical that the U.S. and Canadian 
governments allocate actual dollars--in the near-term--to market the 
programs to new potential members in Buffalo Niagara and across both 
countries.
    For more information on the NEXUS Niagara trusted traveler campaign 
visit http://www.n6xusnlagara.com.
Pre-Inspection U.S.-Bound Commercial Vehicles
    Beginning in late 2009, the PBA began working with local Members of 
Congress and their counterparts in government at the Department of 
Homeland Security to examine creative ways to ease chronic vehicle 
processing delays at the Peace Bridge, which are caused by a number of 
factors such as limited U.S. Customs plaza geography and antiquated 
facilities.
    The Peace Bridge connects the densely populated city of Buffalo's 
west side with the more sparsely-populated town of Fort Erie. As a 
result, substantial property is available adjacent to the Canadian 
port-of-entry, as opposed to its American counterpart. Such property 
could feasibly accommodate new booth infrastructure and innovative 
techniques to pre-inspect or pre-process U.S.-bound commercial 
shipments. This approach would potentially free up much-needed space 
within the U.S. plaza area, and allow for increased automobile and 
commercial vehicle throughput, streamlined traffic patterns, and a more 
secure port parameter.
    According to Nelson Balido, President of the Border Trade Alliance 
(BTA), pre-inspection at the Peace Bridge is worthy of immediate 
consideration through the Beyond the Border Accord because available 
land is already owned by the PBA, the concept offers serious congestion 
relief, and the sovereignty of both nations would be protected by 
retaining U.S. Customs and Border Protection's (CBP) ability to conduct 
actual ``enforcement'' activities on U.S. soil. A copy of the BTA's 
endorsement letter is attached for reference.
    The Department of Homeland Security is slated to announce the 
selection of one or several pre-inspection pilot port locations later 
this year. In doing so, it is critical that DHS focus on those 
crossings that are most important to the U.S.-Canadian trade and 
security relationship, from both a vehicle volume and port 
applicability perspective. This decision should not be postponed, as 
rampant delays and infrastructure inefficiencies continue to cost the 
North American economy millions of dollars each and every year.
    The PBA appreciates this opportunity to offer written comments to 
the House Homeland Security Subcommittee on Counterterrorism and 
Intelligence regarding the Beyond the Border Accord, trusted travel 
promotional needs, and the implementation of innovative border 
management techniques--such as the pre-inspection of commercial 
vehicles at the Peace Bridge--as means to improve the safety and 
efficiency of one North America's busiest border crossings.
            Sincerely,
                                                  Sam Hoyt,
 Chairman, Board of Directors, Buffalo and Fort Erie Public Bridge 
                                                         Authority.

    Mr. Higgins. Mrs. Meyers, you stated in your testimony that 
earlier this month, Customs and Border Protection and the 
Canada Border Service Agency announced the installation of new 
and advanced sense technology, both for the Peace Bridge and 
the Queenston-Lewiston Bridges.
    You also stated that later this year, the Department of 
Homeland Security will be implementing an entry-exit pilot 
project at 2 to 4 land ports of entry, such that a record of 
entry in one country could be considered a record of exit from 
another.
    As you know, the Peace Bridge is the second-busiest land 
border crossing in the United States. How feasible would it be 
for the entry-exit pilot program to be implemented at the Peace 
Bridge?
    Ms. Meyers. Thank you for the question, Congressman 
Higgins. I know that the officials at CBD and CBSA are 
evaluating where to begin the pilot for the entry-exit. I know 
that no decisions have been made at this time. They are looking 
at all sorts of border crossing data and operational issues, 
technological issues. But certainly there are a number of 
locations that are under consideration for all the pilot 
programs.
    Mr. Higgins. Thank you. For the sheriff and the 
commissioner, you mentioned in your testimony the importance of 
the Urban Area Security Initiative Program. The hard thing 
about this is that, you know, we did not ask to be put on this 
list. We were put on the list, as the commissioner had stated 
previously, because of critical infrastructure and because of 
risk and threat.
    The sheriff also mentioned the Niagara Power Project, a 
high-impact target for terrorists. Toronto, an international 
city, a high-impact target for terrorists. Niagara Falls, a 
destination for visitors from all over the world, some 7 
million each year, a high-impact target for terrorists. 
Obviously the second-busiest Northern Border crossing between 
the United States and Canada, a high target for terrorist 
activity.
    We also have a history, as has been mentioned here 
previously, with the Lackawanna Six, a terrorist cell, not far 
from here in Buffalo in the city of Lackawanna.
    So I would like for both of you to talk about the 
importance of the program again, but also the consequence of 
not having it.
    Mr. Neaverth. I will start with the consequence of the de-
funding of UASI. We are still receiving and still have the 
opportunity to submit for other forms of grants to sustain. We 
are currently non-sustaining.
    I think the big issue with regards to the application and 
being de-funded as to UASI is the broad stroke removal versus 
the broad stroke of funding, a lump sum. When we prepare our 
budgets for any of the grants, you have to be very specific as 
to what you are spending your money, what the initiatives are, 
and whether or not they are meeting the justifications. You are 
funded based on that.
    So each year, your investment justification should be 
flexible. It should be based on this year you are purchasing 
equipment for training, and we are doing calibrating, that that 
should be the particular set of funding. But for some of the 
UASIs to have a consistent level of funding that does not 
fluctuate and does not appear to really have any investment 
justification other than here is your funding, I think that is 
where we run into an issue.
    So if it was a level playing field that was addressing what 
the true threats are, we do not need to purchase a million 
dollars' worth of response vehicles every year, but we do need 
to maintain those vehicles. We do need to maintain calibration. 
We do need to maintain the personnel to be able to do that 
response. That is from a law enforcement, fire, as well as the 
EMS side of things.
    So I guess if you take a blanket budget and you write a 
blank check and there would appear from the smaller UASIs to be 
no real--if I did the $50 million this year and I the $50 
million last year, where was the substance of your grant 
application that said you should be at that level?
    You may very well be at $60 million, but with today's 
economic situation, people might just be happy to remain on 
that list and not make any waves about that.
    So I think what does not change is the personnel. What does 
not change is the need to calibrate and maintain all of the 
equipment and operate the training. But there should be some 
type of justification.
    So if you take next year $5 million, $6 million away those 
areas and you reinvest that into some of the unfunded UASIs for 
subsequent years based on those investment justifications, we 
can all feel the pain, but we can all maintain that high level 
that we currently are at, but risk losing by not maintaining 
our equipment and our personnel.
    Sheriff Voutour. Commissioner, you hit it right on the head 
about the accountability of the UASI funding. We are known 
Nation-wide for accountability and the IJs that we have in the 
Buffalo-Niagara region. We are called sort of the model child 
to really come up with plans, spend appropriately, and only 
spending what we absolutely need.
    It would certainly be devastating to us, as the 
commissioner said, if we went from several million dollars down 
to zero. With the investments that we have made and 
infrastructure protection, it would really be difficult for us 
to maintain that further.
    Mr. Chairman, if I may, something I thought of prior to 
your last question is, the FBI assigns a lead in Ottawa Canada, 
and that is a primary contact for the JTTF here in the Buffalo 
region to reach out to them pertaining to communications.
    Mr. Higgins. Thank you. No further questions.
    Mr. Meehan. Okay. The Chairman now recognizes the gentle 
lady from New York, Ms. Hochul, for her questioning.
    Ms. Hochul. Thank you, Mr. Chairman. Ms. Meyers, I wanted 
to ask you, what are the primary regulatory or logistical 
hurdles to cross-border trade that you see right now, and what 
more can Congress be doing to obliterate those? Because as 
everyone has testified today and spoken about, we have to 
eliminate those barriers so we can help our local economy 
prosper. What can Congress be doing to help?
    Ms. Meyers. Absolutely. Thank you, ma'am, for your 
question. Expediting the trade and travel is a significant 
priority obviously for the administration at large. I would 
note to you that one initiative that was announced at the same 
time as the Beyond the Border effort was the U.S.-Canada 
Regulatory Cooperation Council. That is specifically focused on 
eliminating those regulatory barriers.
    Also they are developing an action plan and seeking 
stakeholder input. I think that we all understand that reducing 
barriers so that we can expedite trade between the large export 
market that we have and ensuring that we protect our trade and 
travel from economic disruptions is absolutely critical.
    So the combined elements of Beyond the Borders, such as 
improving infrastructure and getting more people into trade 
programs, combined with the efforts of the Regulatory 
Cooperation Council to raise barriers, such as health, safety, 
transportation, and the environment, combined I think can make 
a significant difference.
    Ms. Hochul. Thank you. Do you believe that the closure of 
the Canadian consulate here in Buffalo will have any impact on 
the implementation of the Beyond the Border initiative?
    Ms. Meyers. I certainly would hope not. I think it is 
unfortunate both our governments, both the Canadian government 
and the United States, are facing difficult financial times and 
a more austere budget environment. I did notice that the 
consulate, I know that it over the years has been a significant 
contributor in this area. But I think that the decision of the 
Canadian government, and we know that the Canadian government 
overall is extremely committed, highly committed, to the 
implementation of the Beyond the Border initiative by its 
operating agencies.
    Ms. Hochul. Thank you very much. Sheriff Voutour, there is 
talk of plans to consolidate Customs and Border Protection on 
the campus of the Niagara Falls Air Reserve Station. Are you 
familiar with that, and what are your thoughts on how that 
would work to help coordinate our local law enforcement and our 
partnerships with the Federal Government?
    Sheriff Voutour. I think it would be a tremendous asset, 
and that goes two ways. Not only to get that headquarters there 
so that we could possibly be a part of it as well, and have 
that collaborative effort, but it also, as you know quite well, 
Congresswoman, it is going to help keep that base which is 
critical to the economic impact here in Niagara County and 
western New York region as our largest employer.
    I think it is a fantastic idea. I certainly support it, and 
I hope we can see that happen very soon.
    Ms. Hochul. Thank you. You mentioned the Niagara Power 
Authority, a great concern to many of us. How prepared are we 
to handle any threat that came to that facility?
    Sheriff Voutour. We train on an annual basis with the Power 
Authority. We have action plans in place. Much of our action 
plan is confidential material. I feel that we are very 
prepared.
    But we also are very cognizant of what can happen in the 
event of a threat there, particularly at the reservoir, and the 
damage that can be done not only to the Niagara area, but also 
from west and north area.
    Ms. Hochul. Thank you. I just wanted to also reiterate my 
support for having the pre-clearance opportunity, the pre-
screening opportunity occur here in western New York. I cannot 
think of any more compelling argument that can be made that 
with the four border crossings to at least initiate this here 
in western New York at the Peace Bridge initially, and 
hopefully to Lewiston-Queenston shortly thereafter. I hope we 
can convey that message very strongly to the Department of 
Homeland Security.
    There is united support for that here. It has got to 
happen. As a former county clerk who was in my position when 
the Western Hemisphere Travel Initiative came into being, I saw 
what happened when people just stopped crossing the border. The 
casual visitors stopped going until we were able to get the 
enhanced licenses, the passport cards out there. So much more 
needs to be done because there has been an impact ever since 
that law went into effect.
    Well-intended, but we are the ones who are collateral 
damage in a sense, and we want to make sure that we keep that 
flow of commerce going, not just for the commercial activity, 
but the individuals. So we look forward to the Department's 
full cooperation on that as well.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Meehan. Thank you. Thank you, Ms. Hochul, for your 
questioning. I know that I just have a couple of follow-up 
questions that I wanted to ask, and I know the Ranking Member 
has a question that he wanted to ask. You may have a follow-up 
if you do.
    But, Ms. Meyers, one of the issues that we have been 
struggling with in the United States are people who enter our 
borders and do so legally under some kind of a visa. They 
maintain a period of time where they are here for educational 
or some kind of specific work-related. But then they overstay 
their visas. We have very little accountability with regards to 
not only where they are in the country, but we do very little 
to identify whether or not they have actually left the country 
in some capacity.
    Can you speak to what is being discussed here? I think that 
there are some proposals that may look at the idea of sharing 
information across borders so that at least when there is entry 
into Canada from somebody who is here on a visa overstay, it 
begins to be communicated back to us to help us close some of 
that information gap.
    Ms. Meyers. Absolutely, Chairman Meehan. This is a terrific 
example of a way in which the Department can best achieve its 
goals and our mandate through collaboration with our community 
partners.
    As you noted, there is a mandate to do exit, and no one had 
built a significant infrastructure to capture outbound exit the 
same that they have to screen individuals that come into the 
United States. So by collaborating with Canada, what we hope 
through this pilot project to be able to do is that a departure 
from the United States will be reported by receiving the entry 
data from Canada once the individual has entered Canada. That 
way we will then be able to close out that record and have a 
much better understanding of who, in fact, is in the country 
and who has left, and can then track overstays as security 
threats as appropriate.
    Mr. Meehan. Thank you. Just one other question to the 
extent that you are able or comfortable speaking about this. We 
have spent a great deal of time on the committee looking at a 
couple of issues. One has been the growing presence of 
Hezbollah, not just in the Middle East, but as we have tracked 
it throughout South America and other kinds of places. We as a 
Nation for the first time saw activity carried out on the 
Mexican border in which there were attempts for the Quds forces 
to utilize in collaboration with some other, you know, the drug 
gangs to carry out an act of terrorism here in the United 
States. So we have seen activity in border countries that has 
then led to potential terrorism.
    I also noted that we are tracking a group within Nigeria 
called Boko Haram. The question as to whether or not they will 
be identified as a foreign terrorist organization is one that 
is before the Department of State, but they have significantly 
increased their terrorist-related activity within Nigeria. 
About half of the Nigerians in Canada that are here are in 
Toronto, and there is a concern about whether there would be 
any relationship back to Boko Haram.
    Are you aware of or comfortable with any information 
sharing that is done to allow us to be aware of any potential 
threats from either Boko Haram or Hezbollah that may be 
situated in Canada, but looking towards the United States?
    Ms. Meyers. Sir, that is a subject outside of the scope of 
my position. I would be very happy to arrange a briefing for 
you or your staff with the principle deputy terrorism 
coordinator for Homeland Security.
    What I can tell you is that the enhanced information 
sharing that has already been undertaken by the Beyond the 
Border initiative will help us to make strides in this and help 
secure our country. We share a responsibility. United States 
and Canada share a responsibility for the safety, and security, 
and resilience of our 2 countries in a world in which we are 
increasingly integrated under evolving threats.
    So certainly we will support that effort, and I would be 
happy to follow up after.
    Mr. Meehan. Well, thank you so much. I just wanted to get 
your perspective here from the local. Let me turn it to my 
colleague, Mr. Higgins, for any concluding questions he may 
have.
    Mr. Higgins. Yeah, just one. Ms. Meyers, on the Department 
of Homeland Security pre-inspection pilot project, I do not 
mean to push this. Well, actually I do.
    [Laughter.]
    Mr. Higgins. But it seems to me that, you know, you had 
indicated that Customs and Border Protection and the Canadian 
Border Service Agency installed new information technology 
equipment. How many Northern Border crossings? Do you have the 
number?
    Ms. Meyers. There are 120 northern borders. In terms of the 
technology that was just recently announced in July, it was 
installed at 2, Peace Bridge and Queenston-Lewiston, to measure 
border wait times.
    Mr. Higgins. That is it?
    Ms. Meyers. Initially.
    Mr. Higgins. Just the 2? Okay. Is that technology necessary 
to facilitate a pre-inspection program, or is that something 
separate?
    Ms. Meyers. This is a different initiative, Congressman 
Higgins.
    Mr. Higgins. Right.
    Ms. Meyers. To start to pilot technology that would allow 
us to better measure wait times, and then relay that 
information to the travelers. So that is one initiative that is 
being worked with the Department of Transportation.
    In fact, one of the elements of the Beyond the Border 
initiative that is very unique is that it is very much an 
interagency effort with the Department of Homeland Security 
partnering with the Department of Transportation, the 
Department of Agriculture, the Department of Justice, 
Department of State, to advance these initiatives.
    Mr. Higgins. Why was the Peace Bridge selected 1 of 2 out 
of over 100?
    Ms. Meyers. I would have to get back to you on that, sir.
    Mr. Higgins. Okay, all right. Thank you.
    Mr. Meehan. Well, thank you, Ranking Member Higgins. I 
would like to thank the witnesses today for their testimony, 
which has been helpful to us in both understanding the unique 
relationship or the unique challenges that exist in this border 
that we share with our good friends from Canada, but also an 
example of a challenge that exists across the extensive border 
that we share from ocean to ocean.
    Is there any concluding comment that any of you would like 
to make with regards to the issues that we raised today for the 
record?
    You do not have to. I am just giving you that opportunity. 
It is a unique opportunity. We do not generally do that, but I 
wanted to give you the chance to do it.
    I want to thank the witnesses for their valuable testimony 
and Members for their questions.
    The Members of the committee may have some additional 
questions for the witnesses, and if, in fact, that happens, we 
would ask that you would try to be responsive to them 
generally. That would be done within writing within about 10 
days.
    I thank you for your service. I thank you for your 
attention to the security of our Nation. I know that all of us 
feel safer with people like yourselves who have devoted 
themselves to the safety and security of our citizens.
    So without objection, the committee stands adjourned.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
